    March 4, 2003




Testimony

                      Statement
                           of
                 David K. Steensma
         Deputy Assistant Inspector General
                     for Auditing
           Office of the Inspector General
               Department of Defense
                        to the
        House Committee on Armed Services
                          on
     U.S.-Russian Cooperative Threat Reduction
           and Non-Proliferation Programs



                    D-2003-059-T




               Department of Defense
           Office of the Inspector General
 Quality               Integrity       Accountability
Mr. Chairman and Members of the Committee:



Thank you for the opportunity to appear before the Committee today and address

your questions regarding our reviews of the Cooperative Threat Reduction

Program. Although progress is being made in destroying weapons of mass

destruction, there is a need for additional management oversight of the country to

country agreements, and more cooperative sharing of program risks.



Congress enacted Public law 102-228, the Soviet Nuclear Threat Reduction Act of

1991, to reduce the threat posed by the weapons of mass destruction remaining in

the territory of the former Soviet Union. Objectives of the Act are to “destroy

nuclear weapons, chemical weapons, and other weapons; transport, store, disable,

and safeguard weapons in connection with their destruction; and establish

verifiable safeguards against the proliferation of such weapons.” The Act

designated DoD as the executive agent for what came to be called the Cooperative

Threat Reduction Program. The current objectives of the Cooperative Threat

Reduction Program, are to:



   • “Dismantle former Soviet Union weapons of mass destruction and

       associated infrastructure.




                                         1
   • Consolidate and secure former Soviet Union weapons of mass destruction

      and related technology and materials.



   • Increase transparency and encourage higher standards of conduct.



   • Support defense and military cooperation with the objective of preventing

      proliferation.”



The annual reports on the Cooperative Threat Reduction Program show steady and

consistent progress in destroying weapons of mass destruction within the former

Soviet Union countries.



On March 18, 2002, the Deputy Secretary of Defense requested that the Office of

the Inspector General of the Department of Defense:



   • review problems that had been identified with the Cooperative Threat

      Reduction Program project to convert liquid propellant removed from

      intercontinental ballistic missiles in the Russian Federation (Russia) into a

      more benign substance;




                                         2
   • provide advice on protecting the Department of Defense from similar

       situations on other United States-funded projects that rely on Russian

       assurances; and,



   • review the organizational arrangements between the Cooperative Threat

       Reduction Policy office within the Office of the Under Secretary of

       Defense for Policy and the Cooperative Threat Reduction Directorate at the

       Defense Threat Reduction Agency.



On September 30, 2002, we issued Report No. D-2002-154 “Cooperative Threat

Reduction Liquid Propellant Disposition Project,” that presented our conclusions

on the project, including the nonavailability of the liquid propellant that prevented

use of the facility built to convert the liquid propellant. I will discuss the issues

identified in our review of the liquid propellant disposition project. In addition, I

will also comment on our prior and ongoing work on the Cooperative Threat

Reduction Program.



Liquid Propellant Project



The liquid propellant disposition project is managed under an implementing

agreement commonly referred to as the Strategic Offensive Arms Elimination-

Russia implementing agreement. The implementing agreement supplements the


                                           3
umbrella agreement that was signed on June 17, 1992, and is known as the

“Agreement Between the United States of America and the Russian Federation

Concerning the Safe and Secure Transportation, Storage, and Destruction of

Weapons and the Prevention of Weapons Proliferation.”



Russia requested U.S. assistance to dispose of liquid fuel (unsymmetrical dimethyl

hydrazine) as well as the oxidizers (dinitrogen tetroxide and mélange). In Russia,

the liquid fuel and dinitrogen tetroxide are known as heptyl and amyl,

respectively. Russia needed assistance with the disposal of heptyl and amyl

(liquid propellant) to facilitate the disposal of intercontinental ballistic missiles

and submarine-launched ballistic missiles. The liquid propellant disposition

project includes removing the heptyl and amyl from missile sites, transporting the

material to storage sites, and converting the material into commercial products.



Costs of the Liquid Propellant Disposition Program


As of July 2, 2002, the Department of Defense had obligated $164.5 million to

assist Russia in the disposal of heptyl and amyl. That amount included:



   • $94.4 million for the heptyl disposition facility and associated shipping and

       logistical support.




                                            4
   • $51.1 million for equipment (flatbed railcars, intermodal containers and

       cranes) and transportation services related to movement and storage of

       liquid propellant disposal, and transition, operation, and maintenance of the

       disposition facility.

   • $17.8 million for designing and site preparation of the amyl disposition

       system.

   • $1.2 million to maintain and secure the heptyl disposition facility, while the

       Department of Defense considered the future of the facility.



Heptyl and Amyl Disposition Facilities


The Defense Threat Reduction Agency's predecessor, the Defense Nuclear

Agency, awarded a contract to Thiokol Corporation in April 1995 to design and

construct the heptyl disposition systems to convert 30,000 metric tons of heptyl to

industrial solvent at Krasnoyarsk, Russia. The heptyl disposition systems were

ready for testing in January 2002 (pictures of the facility are at Attachment 1).

However, at that time and unknown to the Defense Threat Reduction Agency,

there was insufficient heptyl available to cost effectively operate the plant.

Subsequently, the facility was never certified for use.


In June 1999, the Defense Threat Reduction Agency awarded a contract to Bechtel

National, Incorporated, to design, fabricate, and test up to two mobile systems that

would convert 43,000 metric tons of amyl and 80,000 metric tons of mélange into


                                          5
nitric acid. Later, the Department of Defense agreed to a Russian request that the

systems be permanent and located in the Russian cities of Aleksin and

Krasnoyarsk. In February 2002, the Department of Defense removed the

mélange-processing requirement because mélange was not considered a strategic

missile oxidizer.




Department of Defense Learns that Heptyl is Not Available for Conversion



According to the Director, Cooperative Threat Reduction Directorate, Defense

Threat Reduction Agency, the initial indication that heptyl would not be available

for conversion was in January 2002 during informal discussions with Russian

Aviation and Space Agency officials. Following those discussions, on

February 13, 2002, the Director telephoned the Director of the Missile

Technologies Division, Russian Aviation and Space Agency to obtain an

explanation and to request a formal written response. According to the record on

the telephone discussion, the Russian Aviation and Space Agency official

confirmed that “the reprocessed heptyl was made available to the commercial

Proton [commercial launch rocket] program and for missile development tests.”

He also stated that although heptyl tank farms were almost dry, the Russian

Ministry of Defense saw a continuing need for the heptyl disposition facility

because of uncertainties surrounding the number of future space launches. In a


                                         6
letter dated May 24, 2002, the Director of the Missile Technologies Division

provided the official response for Russia. In explaining why the Department of

Defense was not informed, the Director stated, “However, practically speaking,

given the extreme uncertainty of the constantly changing situation, it was very

difficult for Russia to inform you properly without harming Russia’s plans

associated with strategic offensive arms elimination under START [Strategic

Arms Reduction Treaty] I and II, since these plans made it possible to fairly fully

load the two units being built in Krasnoyarsk with work.”



Russian Launches of Heptyl-Fueled Vehicles



During 1992 when the Department of Defense and Russian officials were initially

making decisions on the disposal of heptyl and amyl, Russia was experiencing a

decrease in the number of heptyl-fueled space launches. However, while

negotiations continued on how to dispose of the heptyl and amyl from Russian

missiles, the United States and Russia were also negotiating Russia’s entry into the

commercial space launch business. In September 1993, the two countries signed

the “Agreement Between the Government of the United States of America and the

Government of the Russian Federation Regarding International Trade in

Commercial Space Launch Services.” That 1993 agreement, amended in January

1996, allowed Russia to launch up to 20 principal payloads for international

customers through December 2000, when the agreement expired. Between


                                         7
January 1995 through June 2002, Russia launched 102 heptyl-fueled rockets using

an estimated 12,500 metric tons of heptyl. In addition, Russia could have used

more than 12,500 metric tons of heptyl during that time for test firing of the rocket

engines. According to a trip report prepared by a chemical engineer with the

Science Applications International Corporation, officials from the Russian

Aviation and Space Agency stated that Russia test fires each rocket engine using

100 percent of the fuel capacity.



Lack of Implementing Agreement Requirements



The agreements with Russia did not require Russia to provide the heptyl and amyl

for conversion, including remedies for nonperformance, and did not provide the

Department with adequate access rights to where the heptyl and amyl were stored.



The Strategic Offensive Arms Elimination-Russia implementing agreement did

not require Russia to provide the heptyl and amyl for conversion, and neither that

implementing agreement nor the umbrella agreement, provided adequate access

rights to the Department of Defense. Also, the Strategic Offensive Arms

Elimination-Russia implementing agreement did not include any remedies should

Russia fail to use the United States provided equipment, services, and training.

Agreements should have required that Russia provide the heptyl and amyl for




                                          8
conversion and provide the Department of Defense with access to heptyl and amyl

inventories as well as included remedies for nonperformance.



Audits and Examinations



The umbrella agreement gives the Department of Defense the right to examine

Russia’s use of equipment, services, and training provided by the United States

upon request and according to procedures to which both countries agree. The

Strategic Offensive Arms Elimination-Russia implementing agreement provides

procedures for conducting audits and examinations. That implementing agreement

requires that the Department provide a 30-day written notice prior to performing

an audit and examination, as well as specifying that audits and examinations are

limited to no more than three each calendar year, and concurrently at no more than

two sites. Both the umbrella and implementing agreements did not allow the

Department access to conduct inventory inspections of heptyl and amyl at

Ministry of Defense tank farms.



The Defense Threat Reduction Agency has not performed an audit and

examination on equipment provided to Russia for transporting and storing the

heptyl and amyl since June 1999. The three prior inspections performed prior to

that date were not fully effective. Two inspections identified that Russia

improperly used some intermodal containers for mélange, but those inspections


                                         9
were not thorough enough to identify the extent of improper use of the equipment.

The audits and examinations were limited to comparing the serial numbers on

intermodal containers against the list of serial numbers the project manager

provided, identifying the location, and noting the condition of each container. The

audit and examination team did not verify the contents of the intermodal

containers because team members did not have the equipment needed to safely

examine the intermodal containers.



Program Risks



As early as December 1992, Russian officials had informed Department of

Defense officials of plans to use some of the heptyl removed from ballistic

missiles for space launches. At that time, Russian officials estimated that only

3,000 metric tons would be consumed. In 2000, the Defense Threat Reduction

Agency started to include general and specific risks in its project plans for the

heptyl disposition facility. General risks for that project included cost; project

access, including the number of yearly visits by the project manager; time since

the last audit and examination; site access restrictions; and project status. The

specific risks for the heptyl disposition project were finding and training qualified

Russian operators, and operational performance of the disposition facility.

However, the project plans, which are updated annually, did not identify as a risk

that Russia might use heptyl for other purposes. Other possible uses of heptyl


                                          10
should have been identified as a risk for three reasons. First, Russian officials

informed Department officials in 1992 of their plans to use for space launches

some of the heptyl removed from ballistic missiles. Second, the Russian Aviation

and Space Agency did not control the heptyl owned by the Ministry of Defense.

Third, the Defense Threat Reduction Agency did not have the authority to

inventory the heptyl that Russia was storing at Ministry of Defense sites.



Idle Disposition Facility



The heptyl disposition facility will not be used for its intended purpose. The

Department of Defense now faced the decision on what to do with the heptyl

disposition facility. After the Defense Threat Reduction Agency was notified

about Russia’s heptyl use, the Defense Threat Reduction Agency placed a stop-

work order on the heptyl and amyl disposition facilities while the Department

developed and considered its options. In February 2002, the Office of the Under

Secretary of Defense for Policy drafted a list of options and associated costs for

the heptyl and amyl disposition facilities. In July 2002, the Defense Threat

Reduction Agency terminated the contract while the amyl disposition facility was

still in the design phase. On February 4, 2003, the Deputy Secretary of Defense

approved the “dismantlement and salvage where possible” of the heptyl facility.




                                         11
Other Corrective Actions Taken



The Office of the Under Secretary of Defense for Policy is to be commended for

establishing an Executive Review program to reduce program risks. The

Executive Review program is designed to increase and improve communication

between the Department of Defense and the Russian executive agents. The

Executive Review program offers opportunities for the Department and Russian

executive agents to identify and implement changes to project assumptions and

objectives, obtain legally binding commitments, and avoid expenditure of funds if

Russia cannot meet its commitments.


Other Cooperative Threat Reduction Program Reviews



A list of other prior reviews of the Cooperative Threat Reduction Program is at

Attachment 2.



We are currently reviewing four other projects in the Cooperative Threat

Reduction Program: the Biological Weapons Proliferation Prevention Program;

the Chemical Weapons Destruction Facility; the Fissile Material Storage Facility;

and the Solid Rocket Motor Disposition Facility. In addition, we are reviewing




                                        12
the organizational arrangements within the Department for the Cooperative Threat

Reduction Program. We plan to issue reports on those reviews later in 2003.



Thank you for considering the views of the Office of the Inspector General on the

Cooperative Threat Reduction Program. This concludes my testimony.




                                       13
Pictures of the Heptyl Disposition Facility
           Krasnoyarsk, Russia




Aerial view of the Heptyl Disposition Systems and Infrastructure




Ground View of the Heptyl Fuel Disposition System

                                                               Attachment 1


                                 14
                     Office of the Inspector General, DoD
             Reports on the Cooperative Threat Reduction Program



Report No. 03-OIR-03, “Classified Report,” January 7, 2003

Report No. D-2002-154, Cooperative Threat Reduction Program Liquid Propellant
                       Disposition Project, September 30, 2002

Report No. D-2002-033, Management Costs Associated with the Defense
                       Enterprise Fund, December 31, 2001

Report No. D-2001-074, Cooperative Threat Reduction Program, March 9, 2001

Report No. D-2000-176, Defense Enterprise Fund, August 15, 2000




                                                                   Attachment 2




                                      15
